                           U.S. COMMODITY FUTURES TRADING COMMISSION
                                                Three Lafayette Centre
                                     1155 21st Street, NW, Washing ton, DC 20581
                                             Telephone: (202) 418-5110
                                              Facsimile: (202) 418-5522


                                                December 17, 20 13
   Office of the
Inspector General




      The Honorabl e Gary Gensler
      Chairman
      Commodity Futures Trading Commission
      Washington, D.C. 2058 1

      Dear Chairman Gensler:

          In accordance with the Accountabi lity ofTax Dollars Act of2002 (Pub. L. 107-289), the
      Offi ce of the Inspector General (OIG) contracted with an independent public accounting firm,
      KPMG LLP, to conduct an audit of the CFTC's financial statements for fiscal year 20 13 in
      accordance with generally accepted auditing standards. The OIG concurs with the attached
      unmodified " clean" opinion of our independent public accounting firm on the CFTC ' s financial
      statements.

         Please extend to your staff my appreciation for promptly responding to my staff's requests for
      documents necessary for completing thi s audit. Should you have any questions concerning this
      audit please contact me.


                                                   Sincerely,


                                               Q.
                                                   A. Roy Lavik
                                                   Inspector General


      Attachment
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                           Independent Auditors' Report


Chairman and Inspector General of the
U.S. Commodity Futures Trading Commission:

Report on the Financial Statements

We have audited the accompany ing financial statements of the U.S. Commodity Futures Trading
Commission (CFTC), which com prise the balance sheets as of September 30, 2013 and 201 2, and the
related statements of net cost, changes in net position, custodial activity, and combined statements of
budgetary resources for the years then ended, and the related notes to the financial statements.

Management's Responsibili(V for the Financial Statements

Management is responsible for the preparation and fair presentation of these financial statements in
accordance with U.S. generally accepted accounting principl es; thi s includes the design, implementation,
and maintenance of internal control relevant to the preparation and fair presentation of financi al statements
that are free from material misstatement, whether due to fraud or error.

Auditors' R esponsibili(v

Our responsibili ty is to express an opinion on these financial statements based on our aud its. We conducted
our audits in accordance with auditing standards generally accepted in the United States of America; the
standards applicable to financial audits contained in Government Auditing Standards issued by the
Comptroller General ofthe United States; and Office of Management and Budget (OMB) Bulletin No. 14-
02 , Audit Requirements for Federal Financial Statements. Those standards and OMB Bulletin No. 14-02
require that we plan and perform the audit to obtain reasonable ass urance about whether the financial
statements are free from material misstatement.
An aud it involves performing procedures to obtain audit evidence about the amounts and disclosures in the
financial statements. The procedures selected depend on the auditors' judgment, including the assessment
of the risks of material misstatement of the financial statements, whether due to fraud or error. In making
those risk assessments, the auditor considers internal control relevant to the entity' s preparation and fair
presentation of the financial statements in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the entity's internal
control. Accordingly, we express no such opinion. An audit also includes evaluating the appropriateness of
accounting policies used and the reasonableness of significant accounting estimates made by management,
as wel l as evaluating the overall presentation of the financial statements.
We believe that the audit evidence we have obtained is sufficient and appropriate to provide a basis for our
audit opinion.
Opinion on the Financial Statements

In our op inion, the financial statements referred to above present fairly, in all material respects, the
financial position of the U.S. Commodity Futures Trading Commission as of September 30, 20 13 and
2012, and its net costs, changes in net position, budgeta1y resources, and custod ial activity for the years
then ended in accordance with U.S. generally accepted accounting principles.
                                KPMG LLP Is a Delaware limited liability partnership.
                                the U.S. member firm of KPMG International Cooperat ive
                                ('KPMG lnlemalional'). a Swiss en lily.
Other Matters

Required SupplementaJy Informal ion

U.S. generally accepted accounting principles require that the information in the Management's Discussion
and Analysis section be presented to supplement the basic financial statements. Such information, although
not a part of the basic financial statements, is required by the Federal Accounting Standards Advisory
Board who considers it to be an essential pa11 of financial rep011ing for placing the basic financial
statements in an appropriate operational , economic, or historical context. We have applied certain limited
procedures to the required supplementary information in accordance with aud iting standards general ly
accepted in the United States of America, which consisted of inqui ries of management about the methods
of preparing the information and comparing the information for consistency with management's responses
to our inquiries, the basic financial statements, and other knowledge we obtai ned during our audits of the
basic financial statements. We do not express an opinion or provide any assurance on the information
because the limited procedures do not provide us with sufficient evidence to express an opinion or provide
any assurance.

Other Information

Our audits were conducted for the purpose of forming an opinion on the basic financial statements as a
whole. The information in the Other Information section is presented for purposes of additional analysis
and is not a required part of the basic financial statements. Such information has not been subjected to the
auditing procedures applied in the audit of the basic financial statements, and accordingly, we do not
express an opinion or provide any assurance on it.

Other Reporting Required by Government Auditing Standards
Jutemal Control Over Fiunucial R eporting
In planning and performing our audit of the financial statements, we considered the CFTC's internal
control over financial reporting (internal control) to determine the aud it procedures that are appropriate in
the circumstances for the purpose of expressi ng our opinion on the financial statements, but not for the
purpose of expressing an opinion on the effectiveness of the CFTC's internal control. Accordingly, we do
not express an opinion on the effectiveness of the CFTC's internal control. We did not test all internal
controls relevant to operati ng objectives as broadly defined by the Federal Managers' Financial Integrity
Act of 1982.

A deficiency in internal control exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent, or detect and correct,
misstatements on a timely basis. A material weakness is a deficiency, or a combination of deficiencies, in
internal control such that there is a reasonable possibi lity that a material misstatement of the entity's
fi nancial statements will not be prevented, or detected and corrected on a timely basis. A sign ificant
deficiency is a deficiency, or a combination of defic iencies, in internal control that is less severe than a
material weakness, yet important enough to merit attention by those charged with governance.

Our consideration of internal control was for the limited purpose described in the preceding paragraph and
was not designed to identify all deficiencies in internal control that might be material weaknesses or
significant deficiencies and therefore, material weaknesses or significant deficienc ies may exist that have
not been identified. Given these limitations, during our aud it we did not identify any deficiencies in
internal control that ""e consider to be material weaknesses. However, material weaknesses may exist that
have not been identified.
Compliance and Other Matters
As part of obtaining reasonable assurance about whether the CFTC's financi al statements are free from
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations,
and contracts, noncompliance with which could have a direct and materi al effect on the determination of
financi al statement amounts, and certain provisions of other laws and regulations specified in OMB
Bulletin No. 14-02. However, providing an opi nion on compliance with those provisions was not an
objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of
compli ance disclosed no instances of noncompliance or other matters that are required to be reported
herein under Governmem Auditing Standards or OMB Bulletin No. 14-02.

We also performed tests of its compliance with certain provisions referred to in Section 803(a) of the
Federal Financial Management Improvement Act of 1996 (FFMlA). Providing an opinion on compliance
with FFMlA was not an objective of our audit. and accordingly, we do not express such an opinion. The
results of our tests of FFM IA disclosed no instances in which the CFTC' s financial management systems
did not substanti ally comply with the (I) Federal fi nancial management systems req uirements,
(2) applicable Federal accounting standards. and (3) the United States Government Standard General
Ledger at the transaction level.

Purpose of th e Other Reporting Required by Government Auditing Standards

The purpose of the communication described in the Other Reporting Requi red by Government Auditing
Standards section is solely to describe the scope of our testing of internal control and compli ance and the
result of that testing, and not to provide an opinion on the effectiveness of the CFTC's internal control or
compliance. Accordingly, this communication is not suitable for any other purpose.




Washington, DC
December 16, 20 13
COMMODITY FUTURES TRADING COMMISSION
           FISCAL YEAR 2013

           Management Letter

           December 16, 2013
          COMMODITY FUTURES TRADING COMMISSION

                    Fiscal Year 2013 Management Letter Report

                                  Table of Contents
                                                                                 Page
Management Letter                                                                   1
Exhibit 1 – Accounting and Reporting Control Deficiencies                           2
  a. Untimely Payment of an Invoice and Non-Compliance with Prompt Payment Act      2
December 16, 2013


Chairman and Inspector General of the
U.S. Commodity Futures Trading Commission
Three Lafayette Center
1155 21st Street, NW
Washington, DC 20581


In planning and performing our audit of the financial statements of the U.S. Commodity Futures
Trading Commission (CFTC), as of and for the year ended September 30, 2013, in accordance
with auditing standards generally accepted in the United States of America, we considered the
CFTC’s internal control over financial reporting as a basis for designing audit procedures that
are appropriate in the circumstances for the purpose of expressing our opinion on the financial
statements, but not for the purpose of expressing an opinion on the effectiveness of the CFTC’s
internal control. We did not test all controls relevant to the operating objectives as broadly
defined by the Federal Managers’ Financial Integrity Act of 1982. The objective of our audit
was not to express an opinion on the effectiveness of CFTC’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of the Company’s
internal control.
During our audit we noted certain matters involving internal control and other operational
matters that are presented for your consideration. These comments and recommendations, all of
which have been discussed with the appropriate members of management, are intended to
improve internal control or result in other operating efficiencies and are summarized in Exhibits
1 and 2.
Our audit procedures are designed primarily to enable us to form an opinion on the financial
statements, and therefore may not bring to light all weaknesses in policies or procedures that
may exist. We aim, however, to use our knowledge of the Company’s organization gained
during our work to make comments and suggestions that we hope will be useful to you.
We would be pleased to discuss these comments and recommendations with you at any time.
The purpose of this letter is solely to describe comments and recommendations intended to
improve internal control or result in other operating efficiencies. Accordingly, this letter is not
suitable for any other purpose.


Very truly yours,
(signed) KPMG LLP
                                           EXHIBIT 1
                                         Fiscal Year 2013
                                     Accounting and Reporting
                                       Control Deficiencies



a. Untimely Payment of an Invoice and Non-Compliance with Prompt Payment Act (NFR
   No. 13-CFTC-FSA-01)

Criteria:

Prompt Payment Final Rule (5 CFR Part §1315.4(g)) states, “. . . the payment is due either (i) on
the dates specified in the contract; . . .or (iv) 30 days after the start of the payment period . . .”

Prompt Payment Final Rule (5 CFR Part §1315.10(1)) states, “Interest will be calculated from
the day after the payment due date through the payment date at the interest rate in effect on the
day after the payment due date.”

Condition:

One of the 20 sample items selected for our cash disbursement test work for the period of
October 1, 2012 to September 30, 2013 was not paid timely. In addition, interest was not
calculated and paid. The invoice in the amount of $1,250.75 was received on June 20, 2013, but
was not paid until August 8, 2013.

Cause:

The Division of Enforcement staff failed to monitor the due date for paying the invoice. CFTC
did not calculate interest for the late payment tested because the invoice was paid via purchase
card and not through the U.S. Department of Transportation’s Enterprise Service Center.

Effect:

Interest required by the Prompt Payment Act was not calculated and paid; therefore, CFTC is not
compliant with the Prompt Payment Act.

Recommendation:

We recommend that CFTC implement procedures to ensure that all invoices are paid by the U.S.
Department of Transportation’s Enterprise Service Center.
EXHIBIT 2
EXHIBIT 2
EXHIBIT 2
    EXHIBIT2




•
Commodity Futures Trading Conunission

BALANCE SHEETS
As of Septe mber 30, 2013 a nd 2012

                                                                                                    2013                   2012

 ASSETS
 INTRAGOVERNMENTAL:
       Fund Balance w ith Treasury (Note 2)                                               $ 36,467,970           $ 82,557,690
       Investments (Note 3)                                                                   95,000,000              77, 135,901
       Prepayments (No te 1Jl                                                                     252,341                185,766
      Totallntragovernmental                                                                  131 ,720,311           159,8 79,3 57

 C ustodial Receivables. Net <Not e 4)                                                        69,744,626               4,140,34 7
 Accounts Receivable, Net (Note 4)                                                                  13,252                20,976
 General Property, Plant and Equipm ent, Net (Note 5)                                         58,251,172              53,4 10,435
 De ferred Cost s (Note 6)                                                                        220,953              1,234,223
 Prepayments CN ote 1J l                                                                        1,289,340              1,6 17,731
 TOTAL ASSETS                                                                             $ 261 ,239, 654        $ 220,303,069

 LIABILITIES
 INTRAGOVERNMENTAL:
       FECA Liabilities <Not e 9l                                                         $        94 ,605       $       127,661
      Accounts Payable                                                                            269,639                523,356
      Totallntragovernmental                                                                      3 64,244               65 1,017

 Accounts Payable                                                                               4,822.771              6,694,416
 Accrued Funded Payroll                                                                         2,903,312              7,837,836
 A nnual Leave                                                                                  8,748,274              8,639,840
 Actuarial FECA Liabilities (Note 9)                                                              501,7 48               636,582
 C ust odial Liabilities                                                                      69,744,626               4,140,34 7
 Deposit Fund Liabilities                                                                           83,997                 77,098
 De ferred Lease Liabilities <Not e 10)                                                        25,241 ,114            24,808,042
 Other                                                                                              19,600                 19,050
 Total Li abilit ies                                                                      $ 112,429,686          $ 53,504,228

 Contin gent Liabilities <Not e 11 l


 NET POSITION
      C umulati ve Results o f Operations - Dedicated Collections                         $ 99,904 ,291          $ 99,996,749
      C umulati ve Results o f Operations - Other                                              23,898,7 49            20, 452,6 19
      Unexpended A ppropriations                                                               25,006,928             46,349,473
 Total Net Po sit ion                                                                         148,809,968            166,79 8, 841
 TOTAL LIABILITIES AND N ET POSITION                                                      $ 261 ,239, 654        $ 220,303,069

The accompanying notes are an integral part of these finan cial statements.




(D    I CFTC                           Management's
                                       Discussion & Analysis
                                                                •     Financial SectiOn       Other lnformanon                AppendiX
                                                                             FINANCIAL SECTION




Commodity Futures Trading Commission

STATEMENTS OF NET COST
For the Years Ended September 30, 2013 and 2012

                                                                                             2013               2012

  NET COST BY GOAL <NOTE 14>

GOAL1: PROTECT THE PUBLIC AND MARKET PARTICIPANTS BY ENSURING MARKET INTEGRITY;
PROMOTING TRANSPARENCY, COMPETITION, AND FAIRNESS; AND LOWERING RISK IN THE SYSTEM.
  Gross Costs                                                                        $   62,239.775     $   59,233,491
  Less: Earned Revenue                                                                      (28.526)           (64,907)
  NET COST OF OPERATIONS- GOAL ONE                                                   $   62,211,249     $   59,168,584


GOAL2: PROTECT THE PUBLIC AND MARKET PARTICIPANTS BY ENSURING THE FINANCIAL
INTEGRITY OF DERIVATIVES TRANSACTIONS, MITIGATION OF SYSTEMIC RISK, AND THE
FITNESS AND SOUNDNESS OF INTERMEDIARIES AND OTHER REGISTRANTS.
  Gross Costs                                                                        $   57.483.984     $   54,707,413
  Less: Earned Revenue                                                                      (26.346)           (59,948)
  NET COST OF OPERATIONS- GOAL TWO                                                   $   57,457,638     $   54,647,465


GOAL3: PROTECT THE PUBLIC AND MARKET PARTICIPANTS THROUGH
A ROBUST ENFORCEMENT PROGRAM.
  Gross Costs                                                                        $   64. 137.728    $   61 ,039,770
  Less: Earned Revenue                                                                      (29.397)           (66,887)
  NET COST OF OPERATIONS- GOAL THREE                                                 $   64,1 08,331    $   60,972,883


GOAL4: ENHANCE INTEGRITY OF U.S. MARKETS BY ENGAGING IN CROSS-BORDER COOPERATION,
PROMOTING STRONG INTERNATIONAL REGULATORY STANDARDS, AND ENCOURAGING ONGOING
CONVERGENCE OF LAWS AND REGULATION WORLDWIDE.
  Gross Costs                                                                        $    7.308.21 1    $    6,955,2 12
  Less: Earned Revenue                                                                       (3.350)            (7 ,621)
  NET COST OF OPERATIONS- GOAL FOUR                                                  $    7,304,861     $    6,947,591


GOALS: PROMOTE COMMISSION EXCELLENCE THROUGH EXECUTIVE DIRECTION
AND LEADERSHIP, ORGANIZATIONAL AND INDIVIDUAL PERFORMANCE MANAGEMENT,
AND EFFECTIVE MANAGEMENT OF RESOURCES.
  Gross Costs                                                                        $   26.985.840     $   25,682,379
  Less: Earned Revenue                                                                      ( 12,368)          (28, 141 )
  NET COST OF OPERATIONS- GOAL FIVE                                                  $   26,973,472     $   25,654,238

GRAND TOTAL
  Gross Costs                                                                        $ 2 18. 155.538    $ 207,618,265
  Less: Earned Revenue                                                                      (99.987)          (227,504)
  TOTAL NET COST OF OPERATIONS                                                       $ 218,055,551      $ 207,390,761

The accompanying notes are an integral part of these financial statements.




    Management's
    Discussion & Analysis
                               •     Financial SectiOn            Other lnfonmanon           Appendix        CFfC I         G
Commodity Futures Trading Commission

Statements of Changes in Net Position
For the Years Ended September 30, 2013 and 2012

                                                                                                               2013

                                                                                    DEDICATED               ALL OTHER      CONSOLIDATED
 CUMULATIVE RESULTS OF OPERATIONS                                                  COLLECTIONS                FUNDS           TOTAL
  Beginning Balances, October 1                                                    $	99,996,749           $	20,452,619     $	120,449,368
  	   Appropriations Used                                                          	–                      215,085,989      215,085,989
  Other Financing Sources:
  	 Transfers - In Without Reimbursement (Note 17)                                 817,435                	–                    817,435
  	 Imputed Financing Sources                                                      	–                     5,505,799           5,505,799
  	   Total Financing Sources                                                              817,435            5,505,799       6,323,234
  Net Cost of Operations                                                                   (909,893)      (217,145,658)    (218,055,551)
  Net Change                                                                                (92,458)          3,446,130       3,353,672
  TOTAL CUMULATIVE RESULTS OF OPERATIONS, SEPTEMBER 30                             $	99,904,291           $	23,898,749     $	123,803,040

 UNEXPENDED APPROPRIATIONS
  Beginning Balances, October 1                                                    $	–                    $	46,349,473     $	46,349,473
  Budgetary Financing Sources:
  	 Appropriations Received                                                        	–                      205,294,000      205,294,000
  	 Less: Other Adjustments (Rescissions, etc.)                                    	–                      (11,550,556)     (11,550,556)
  	 Appropriations Used                                                            	–                     (215,085,989)    (215,085,989)
  		 Total Budgetary Financing Sources                                             	–                       (21,342,545)    (21,342,545)
  Total Unexpended Appropriations, September 30                                    $	–                    $	25,006,928     $	25,006,928
  NET POSITION                                                                     $	99,904,291           $	48,905,677     $	148,809,968


                                                                                                               2012

                                                                                    DEDICATED               ALL OTHER      CONSOLIDATED
 CUMULATIVE RESULTS OF OPERATIONS                                                  COLLECTIONS                FUNDS           TOTAL
  Beginning Balances, October 1                                                    $	23,755,000           $	17,998,424     $	41,753,424
  	   Appropriations Used                                                          	–                      202,899,168      202,899,168
  Other Financing Sources:
  	 Transfers - In Without Reimbursement (Note 17)                                 76,708,620             	–                 76,708,620
  	 Imputed Financing Sources                                                      	–                     6,478,917           6,478,917
  	   Total Financing Sources                                                            76,708,620           6,478,917      83,187,537
  Net Cost of Operations                                                                   (466,871)      (206,923,890)    (207,390,761)
  Net Change                                                                             76,241,749           2,454,195      78,695,944
  TOTAL CUMULATIVE RESULTS OF OPERATIONS, SEPTEMBER 30                             $	99,996,749           $	20,452,619     $	120,449,368

 UNEXPENDED APPROPRIATIONS
  Beginning Balances, October 1                                                    $	–                    $	44,666,156     $	44,666,156
  Budgetary Financing Sources:
  	 Appropriations Received                                                        	–                      205,294,000      205,294,000
  	 Less: Other Adjustments (Rescissions, etc.)                                    	–                         (711,515)        (711,515)
  	 Appropriations Used                                                            	–                     (202,899,168)    (202,899,168)
  		 Total Budgetary Financing Sources                                             	–                         1,683,317       1,683,317
  Total Unexpended Appropriations, September 30                                    $	–                    $	46,349,473     $	46,349,473
  NET POSITION                                                                     $	99,996,749           $	66,802,092     $	166,798,841


The accompanying notes are an integral part of these financial statements.



46                                  Management’s
       CFTC                         Discussion & Analysis
                                                                     Financial Section                 Other Information           Appendix
                                                                             FINANCIAL SECTION




Commodity Futures Trading Commission

STATEMENTS OF BUDGETARY RESOURCES
For the Years Ended September 30, 2013 and 2012
                                                                                                       2013              2012

 BUDGETARY RESOURCES
 Unobligated Balance, October 1                                                         $ 110,168.414         $ 37,356, 190
 Recoveries of Prior Year Unpaid Obligations                                                   3,885, 172            6,327.442
 Other Changes in Unobligated Balance                                                            (8 12.448)           (7 11 ,515)
      Unobligated Balance from Prior Year Authority                                          113,241,138            42,972,11 7

      Appropriations                                                                         193,892,892          205,294,000
      Spending Authority from Offsetting Coll ections                                          1,103.453            76,925,590
 TOTAL BUDGETARY RESOURCES                                                              $ 308,237,483         $325,191,707


 STATUS OF BUDGETARY RESOURCES
 Obligations Incurred CNote 13)                                                         $ 203,268,997         $ 215,023,293
 Unobligated Balance, End of Period
      Apportioned                                                                             13,847 ,564           18,982,888
      Un apportioned                                                                          91 ,120,922           91 ,185,526
 Total Unobligated Balance. End of Period                                                    104,968.486          11 0,168.414
 TOTAL STATUS OF BUDGETARY RESOURCES                                                    $ 308,237,483         $325,191,707


 CHANGE IN OBLIGATED BALANCES
 Unpaid Obligations, October 1 CGross)                                                  $ 49,456,691          $ 44,462,925
 Uncollected Customer Payments from Federal Sources. October 1                                     (8,613)             (50,021)
      Obligated Balance, October 1 CNet)                                                      49,448,078            44,412,904
 Obligations Incurred                                                                        203,268,997          215,023,293
 Outlays (Gross)                                                                            (223,042, 111)        (203, 702,085)
 Change in Uncollected Customer Payments from Federal Sources                                     (37 ,308)             41.408
 Recoveries of Prior Year Unpaid Obligations                                                  (3,885, 172)          (6,327 .442)
      Obligated Balance, September 30
      Unpaid Obligations, End of Year (gross)                                                 25,798.406            49,456,691
      Uncollected Customer Payments from Federal Sources. End of Year                            (45,922)                (8,613)
 NET OBLIGATED BALANCE, SEPTEMBER 30                                                    $     25,752,484      $     49,448,078

 NET BUDGET AUTHORITY AND OUTLAYS
 Budget Authority, Gross                                                                $ 194,996,345         $ 282,219,590
 Actual Offsetting Co ll ections                                                              (1 ,066, 145)        (76,966,998)
 Change in Uncollected Customer Payments from Federal Sources                                     (37 ,308)             41.408
 BUDGET AUTHORITY, NET                                                                  $ 193,892,892         $ 205,294,000

 Outlays (Gross)                                                                        $ 223,042,111         $ 203,702,085
 Actual Offsetting Co ll ections                                                              (1 ,066, 145)        (76,966,998)
 Distributed Offsetting Receipts                                                                  (63,000)               (3,21 0)
 NET OUTLAYS                                                                            $ 221,912,966         $ 126,731,877


The accompanying notes are an integral part of these financial statements.




    Management's
    Discussion & Analysis
                                   •   Financial SectiOn          Other lnformanon          Appendix                CFfC I        G
Commodity Futures Trading Commission

Statements of Custodial Activity
For the Years Ended September 30, 2013 and 2012

                                                                                         	2013                   	2012


 REVENUE ACTIVITY
  Sources of Cash Collections:
      	   Registration and Filing Fees                                                   $	1,647,387             $	1,780,883
  	       Fines, Penalties, and Forfeitures                                               1,042,182,362            259,687,332
  	       General Proprietary Receipts                                                            62,952                  3,210
  Total Cash Collections                                                                  1,043,892,701            261,471,425
  Change in Custodial Receivables                                                            65,604,279               1,566,174
  TOTAL CUSTODIAL REVENUE                                                                $	1,109,496,980         $	263,037,599


 DISPOSITION OF COLLECTIONS
  Amounts Transferred to:
  	       Department of the Treasury                                                     (1,043,075,266)           (184,762,805)
  	       Customer Protection Fund                                                              (817,435)           (76,708,620)
  Change in Custodial Liabilities                                                           (65,604,279)             (1,566,174)
  NET CUSTODIAL ACTIVITY                                                                 $	–                     $	–


The accompanying notes are an integral part of these financial statements.




48                                       Management’s
           CFTC                          Discussion & Analysis
                                                                     Financial Section       Other Information             Appendix
Note 1. Summary of Significant                                 B. Basis of Presentation
Accounting Policies
                                                               The financial statements have been prepared to report the
A. Reporting Entity                                            financial position and results of operations for the CITC, as
                                                               required by the Chief Financial Officers' Act of 1990 along
The Commodity Futures Trading Commission (CFTC)                with the Accountability of Tax Dollars Act of 2002, and the
is an independent agency of the executive branch of the        Government Management Reform Act of 1994. They are
Federal Government. Congress created the CITC in 1974          presented in accordance with the form and content require-
under the authorization of the Commodity Exchange Act          ments contained in Office of Management and Budget
(CEA) with the mandate to regulate commodity futures and       (OMB) Circular A-136, Financial Reporting Requirements, as
option markets in the United States. The agency's mandate      amended.
was renewed and expanded under the Futures Trading
Acts of 1978, 1982, and 1986; under the Futures Trading        The principal financial statements have been prepared in
Practices Act of 1992; under the CITC Reauthorization Act      all material respects from the agency's books and records
of 1995; under the Commodity Futures Modernization Act         in conformity with U.S. generally accepted accounting prin-
of 2000; and under the Dodd-Frank Act of 2010. Congress        ciples (GMP), as prescribed for the Federal government by
passed the Food, Conservation, and Energy Act of 2008          the Federal Accounting Standards Advisory Board (FASAB).
(Farm Bill), which reauthorized the Commission through         The application and methods for applying these principles
FY 2013. The CITC continues to operate through authorized      are appropriate for presenting fairly the entity's assets, liabil-
appropriations.                                                ities, net cost of operations, changes in net position, and
                                                               budgetary resources.
The CITC is responsible for ensuring the economic utility of
futures markets by encouraging their competitiveness and       The financial statements report on the CITC's financial
efficiency, ensuring their integrity, and protecting market    position, net cost of operations, changes in net position,
participants against manipulation, abusive trade practices,    budgetary resources, and custodial activities. The books
and fraud.                                                     and records of the agency served as the source of informa-
                                                               tion for preparing the financial statements in the prescribed
On July 21, 2010, the •Dodd-Frank Wall Street Reform and       formats. All agency financial statements and reports used to
Consumer Protection Act" (the Dodd-Frank Act, or the Act)      monitor and control budgetary resources are prepared from
was signed into law, significantly expanding the powers and    the same books and records. The statements should be read
responsibilities of the CITC. According to Section 7 48 of     with the understanding that they are for a component of the
the Act, there is established in the Treasury of the United    U.S. Government, a sovereign entity.
States a revolving fund known as the •commodity Futures
Trading Commission Customer Protection Fund" (the Fund).       The Balance Sheets present the financial position of the agency.
The Fund shall be available to the Commission, without         The Statements of Net Cost present the agency's operating
further appropriation or fiscal year limitation, for a) the    results; the Statements of Changes in Net Position display the
payment of awards to whistleblowers; and b) the funding of     changes in the agency's equity accounts. The Statements of
customer education initiatives designed to help customers      Budgetary Resources present the sources, status, and uses of
protect themselves against fraud or other violations of this   the agency's resources and follow the rules for the Budget of
Act or the rules and regulations thereunder.                   the United States Government. The Statements of Custodial




    Management's
    Discussion & Analysis
                            •    Financial SectiOn         Other lnfonmanon               Appendix               CFfC I      G
Activity present the sources and disposition of collections         D. Entity and Non-Entity Assets
for which the CFTC is the fiscal agent, or custodian, for the
                                                                    Assets consist of entity and non-entity assets. Entity assets are
Treasury General Fund Miscellaneous Receipt accounts.
                                                                    those assets that the CFTC has authority to use for its opera-
Throughout these financial statements, assets, liabilities,         tions. Non-entity assets are those held by the CFTC that are
revenues and costs have been classified according to the            not available for use in its operations. Non-entity assets
type of entity with whom the transactions were made.                held by the CFTC include deposit fund balances, custodial
Intragovernmental assets and liabilities are those from or to       fines, interest, penalties, and administrative fees receivable.
other federal entities. Intragovernmental earned revenues are
collections or accruals of revenue from other federal entities,     E. Fund Balance with Treasury
and intragovernmental costs are payments or accruals to
                                                                    Fund Balance with Treasury is the aggregate amount of the
other federal entities. The CFTC does not transact business
                                                                    CFTC’s funds with Treasury in expenditure, receipt, revolving,
among its own operating units, and therefore, intra-entity
                                                                    and deposit fund accounts. Appropriated funds recorded in
eliminations were not needed.
                                                                    expenditure accounts are available to pay current liabilities
                                                                    and finance authorized purchases. Revolving fund custodial
C. Budgetary Resources and Status                                   collections recorded in the deposit fund and miscellaneous
The CFTC is funded through congressionally approved                 receipts accounts of the Treasury are not available for agency
appropriations. The CFTC is responsible for administering           use. At fiscal year-end, receipt account balances are returned
the salaries and expenses of the agency through the execution       to Treasury or transferred to the Customer Protection Fund.
of these appropriations.
                                                                    The CFTC does not maintain bank accounts of its own, has
Congress annually enacts appropriations that provide                no disbursing authority, and does not maintain cash held
the CFTC with the authority to obligate funds within the            outside of Treasury. Treasury disburses funds for the agency
respective fiscal year for necessary expenses to carry out          on demand. Spending authority from offsetting collections is
mandated program activities. In addition, Congress enacted          recorded in the agency’s expenditure account and is available
a permanent indefinite appropriation that is available until        for agency use subject to certain limitations.
expended. All appropriations are subject to quarterly appor-
tionment as well as Congressional restrictions.                     F. Investments

The CFTC’s budgetary resources for FY 2013 consist of:              The CFTC has the authority to invest amounts deposited in
                                                                    the Customer Protection Fund in short-term market-based
■    Unobligated balances of resources brought forward              Treasury securities. Market-based Treasury securities are debt
     from the prior year,                                           securities that the U.S. Treasury issues to Federal entities
                                                                    without statutorily determined interest rates. Although the
■    Recoveries of obligations made in prior years, and             securities are not marketable, the terms (prices and interest
                                                                    rates) mirror the terms of marketable Treasury securities.
■    New resources in the form of appropriations and
     spending authority from offsetting collections.                Interest earned on the investments is a component of the
                                                                    Fund and is available to be used for expenses of the Customer
Unobligated balances associated with resources expiring at
                                                                    Protection Fund. Additional details regarding Customer
the end of the fiscal year remain available for five years after
                                                                    Protection Fund investments are provided in Note 3.
expiration only for upward adjustments of prior year obliga-
tions, after which they are canceled and may not be used.
                                                                    G. Accounts Receivable, Net
All unused monies related to canceled appropriations are
returned to Treasury and the canceled authority is reported         Accounts receivable consists of amounts owed by other federal
on the Statements of Budgetary Resources and the Statements         agencies and the public to the CFTC and is valued net of
of Changes in Net Position.                                         an allowance for uncollectible amounts. The allowance is




50                                 Management’s
        CFTC                       Discussion & Analysis
                                                                   Financial Section          Other Information              Appendix
                                                                         FINANCIAL SECTION




based on past experience in the collection of receivables and     K. Liabilities
analysis of the outstanding balances. Accounts receivable arise
                                                                  The CFTC's liabilities consist of actual and estimated
from reimbursable operations, earned refunds or the Civil
                                                                  amounts that are likely to be paid as a result of transac-
Monetary Sanctions program.
                                                                  tions covered by budgetary resources for which Congress has
                                                                  appropriated funds or funding, or are otherwise available
H. General Property, Plant and Equipment, Net
                                                                  from reimbursable transactions to pay amounts due.
Furniture, fixtures, equipment, information technology
hardware and software, and leasehold improvements                 Liabilities include those covered by budgetary resources in
are capitalized and depreciated or amortized over their           existing legislation and those not yet covered by budgetary
useful lives.                                                     resources. The CFIC liabilities not covered by budgetary
                                                                  resources include:
The CFfC capitalizes assets annually if they have useful lives
of at least two years and an individual value of $25,000 or       •    Intragovernmental Federal Employees' Compensation
more. Bulk or aggregate purchases are capitalized when the             Act (FECA) liabilities,
individual useful lives are at least two years and the purchase   •    Annual leave benefits that will be funded by annual
is a value of $25,000 or more. Property, plant and equip-              appropriations as leave is taken,
ment that do not meet the capitalization criteria are expensed
                                                                  •    Actuarial FECA liabilities,
when acquired. Depreciation for equipment and amortiza-
tion for software is computed on a straight-line basis using      •    Custodial liabilities for custodial revenue transferred to
a 5-year life. Leasehold improvements are amortized over               Treasury at fiscal yearend,
the remaining life of the lease. The Commission's assets are      •    Contingent liabilities,
valued net of accumulated depreciation or amortization.           •    Deposit funds,
                                                                  •    Deferred lease liabilities, and
I. Deferred Costs
                                                                  •    Advances received for reimbursable services yet to be
The Commission has received lease incentives, Tenant                   provided.
Improvement Allowances (TIA), from the landlords on its
operating leases. These allowances can be used for construc-       L. Accounts Payable
tion, asset purchases, or rent expense, and are classified as
deferred costs on the balance sheets. These costs are real-       Accounts payable consists primarily of contracts for goods or
located either to leasehold improvements, equipment, or if        services, such as operating leases, leasehold improvements,
used for rent, expensed. TheTIA is also amortized with the        software development, information technology, telecom-
deferred lease liability over the life of the lease.              munications, and consulting and support services.


J. Prepayments                                                    M. Accrued Payroll and Benefits and
                                                                  Annual Leave Liability
Payments to federal and non-federal sources in advance of
the receipt of goods and services are recorded as prepay-         The accrued payroll liability represents amounts for salaries
ments and recognized as expenses when the related goods           and benefits owed for the time since the payroll was last paid
and services are received. Intragovemmental prepayments           through the end of the reporting period. The annual leave
reported on the Balance Sheet were made primarily to the          liability is the amount owed employees for unused annual
Department of Transportation (DOT) for transit subsidy            leave as of the end of the reporting period. At the end of each
and accounting services. Prepayments to the public were           quarter, the balance in the accrued annual leave account is
primarily for software maintenance and subscription               adjusted to reflect current balances and pay rates. Sick leave
services.                                                         and other types of non-vested leave are expensed as taken.




                                                                                                                  CFfC I ~
     Management's
                              •    Financial SectiOn          Other lnfonmanon              Appendix
     Discussion & Analysis
The agency’s employees participate in the Civil Service             Cumulative results of operations represent the excess of
Retirement System (CSRS) or the Federal Employees’                  budgetary or other financing sources over expenses since
Retirement System (FERS). On January 1, 1987, FERS went             inception. Cumulative results of operations are derived from
into effect pursuant to Public Law 99-335. Most employees           the net effect of capitalized assets, expenses, exchange revenue,
hired after December 31, 1983, are automatically covered by         and unfunded liabilities.
FERS and Social Security. Employees hired prior to January 1,
1984, could elect to either join FERS and Social Security or        Q. Revenues
remain in CSRS.
                                                                    The CFTC receives reimbursement and earns revenue for the

For employees under FERS, the CFTC contributes an amount            following activities:

equal to one percent of the employee’s basic pay to the tax         ■    Reimbursement for travel, subsistence, and related
deferred Thrift Savings Plan and matches employee contribu-              expenses from non-federal sources for attendance at
tions up to an additional four percent of pay. FERS and CSRS             meetings or similar functions that an employee has been
employees can contribute a portion of their gross earnings to            authorized to attend in an official capacity on behalf of
the plan up to Internal Revenue Service (IRS) limits; however,           the Commission.
CSRS employees receive no matching agency contribution.
                                                                    ■    Reimbursement for Intergovernmental Personnel Act
N. Leases                                                                Mobility Program assignments from state and local
                                                                         governments, institutions of higher education, and other
The CFTC does not have any capital lease liabilities. The                eligible organizations for basic pay, supplemental pay,
operating leases consist of commercial property for the                  fringe benefits, and travel and relocation expenses.
CFTC’s headquarters and regional offices. Lease expenses
are recognized on a straight-line basis.                            ■    Reimbursement from non-federal sources for registration
                                                                         fees to cover the cost of expenses related to the CFTC’s
O. Deposit Funds                                                         annual International Regulators Conference.

Deposit funds are expenditure accounts used to record               R. Net Cost of Operations
monies that do not belong to the Federal government.
They are held awaiting distribution based on a legal deter-         Net cost of operations is the difference between the CFTC’s

mination or investigation. The CFTC Deposit Fund is used            expenses and its earned revenue. The presentation of program

to collect and later distribute collections of monetary awards      results by strategic goals is based on the CFTC’s current

to the appropriate victims as restitution. The cash collections     Strategic Plan established pursuant to the Government

recorded in this fund are offset by a Deposit Fund liability.       Performance and Results Act of 1993. (Note 15)

Activities in this fund are not fiduciary in nature because they
                                                                    The mission statement of the CFTC is to protect market users
are not legally enforceable against the government.
                                                                    and the public from fraud, manipulation, and abusive prac-
                                                                    tices related to the sale of commodity and financial futures
P. Net Position                                                     and options, and to foster open, competitive, and financially
Net position consists of unexpended appropriations and              sound futures and option markets. The mission is accom-
cumulative results of operations. Unexpended appropriations         plished through five strategic goals, each focusing on a vital
are appropriations that have not yet been used to acquire goods     area of regulatory responsibility:
and services or provide benefits. Appropriations are considered
                                                                    ■    Protect the public and market participants by ensuring
expended, or used, when goods and services have been
                                                                         market integrity; promoting transparency, competition,
acquired by the CFTC or benefits have been provided using
                                                                         and fairness; and lowering risk in the system,
the appropriation authority, regardless of whether monies have
been paid or payables for the goods, services, or benefits have
been established.




52                                 Management’s
        CFTC                       Discussion & Analysis
                                                                   Financial Section            Other Information            Appendix
                                                                         FINANCIAL SECTION




•   Protect the public and market participants by ensuring         T. Use of Management Estimates
    the financial integrity of derivatives transactions,
                                                                   The preparation of the accompanying financial statements in
    mitigation ofsystemic risk, and the fitness and soundness
                                                                   accordance with accounting principles generally accepted in
    of intermediaries and other registrants,
                                                                   the United States of America requires management to make
•   Protect the public and market participants through a           certain estimates and assumptions that directly affect the results
    robust enforcement program,                                    of reported assets, liabilities, revenues, and expenses. Actual
                                                                   results could differ from these estimates.
•   Enhance integrity of U.S. markets by engaging in cross-
    border cooperation, promoting strong international             U. Reconciliation of Net Obligations and Net Cost
    regulatory standards, and encouraging ongoing                  of Operations
    convergence of Jaws and regulation worldwide, and
                                                                   In accordance with OMB Circular A-136, the Commission
•   Promote Commission excellence through executive                reconciles its change in budgetary obligations with its net cost
    direction and leadership, organizational and individual        of operations.
    performance management, and effective management
    of resources.                                                  V. Funds from Dedicated Collections

                                                                   The Commission's Customer Protection Fund (CPF)
S. Custodial Activity                                              was established to operate a whistleblower program and
The CFTC collects penalties and fines levied against firms for     support customer education initiatives. See Note l.A. for
violation of Jaws as described in the Commodity Exchange           a description of the purpose of the CPF and its authority
Act as codified at 7 U.S.C. § 1, et seq, and the Commodities       to use revenues and other financing sources. Deposits into
Futures Modernization Act of 2000, Appendix Eof P.L 106-554,       the CPF are credited from monetary sanctions collected by
114 Stat. 2763. Unpaid fines, penalties and accrued interest       the Commission in a covered judicial or administrative
are reported as custodial receivables, with an associated custo-   action where the full judgment is in excess of $1,000,000
dial liability. The receivables and the liability are reduced by   and the collection is not otherwise distributed to victims of
amounts determined to be uncollectible. Revenues earned and        a violation of the Dodd-Frank Act or the underlying rules
the losses from bad debts are reported to Treasury.                and regulations, unless the balance of the CPF at the time
                                                                   the monetary judgment is collected, exceeds $100 million.
Collections made by the CFTC during the year are deposited         No new legislation was enacted as of September 30, 2013
and reported into designated Treasury miscellaneous receipt        that significantly changed the purpose of the earmarked fund
accounts for:                                                      or redirected a material portion of the accumulated balance.
                                                                   However, an independent assessment by the Government
•   Registration and filing fees,                                  Accountability Office issued in November 2013 inter-
                                                                   preted that collections should be kept intact and deposited
•   Fines, penalties and forfeitures, and
                                                                   in full into the fund as long as the fund balance is below
•   General proprietary receipts.                                  $100 million at the time of collection.


At fiscal year-end, custodial collections made by the CFTC
are either returned to Treasury or when determined eligible,
transferred to the Customer Protection Fund. The CFTC does
not retain any amount for custodial activities including
reimbursement of the cost of collection.




     Management's
     Discussion & Analysis
                              •     Financial SectiOn         Other lnfonmanon               Appendix                CFfC I      e
Note 2. Fund Balance with Treasury

A. Reconciliation to Treasury

There are no differences between the fund balances reflected in the CFTC Balance Sheets and the balances in the
Treasury accounts.


B. Fund Balance with Treasury

Fund Balance with Treasury consists of entity assets such as appropriations, reimbursements for services rendered, and
collections of fines and penalties. Obligation of these funds is controlled by quarterly apportionments made by OMB.
Work performed under reimbursable agreements is initially financed by the annual appropriation and is subsequently
reimbursed. Collections of fines and penalties are distributed to harmed investors, returned to Treasury, or when eligible,
transferred to the Customer Protection Fund.

Fund Balance with Treasury at September 30, 2013 and 2012 consisted of the following:

                                                                                                    2013            2012
  Appropriated Funds                                                                     $	31,400,740       $	59,576,063
  Customer Protection Fund                                                                  4,983,233         22,904,529
  Deposit Fund                                                                                 83,997             77,098
  TOTAL FUND BALANCE WITH TREASURY                                                       $	36,467,970       $	82,557,690



C. Status of Fund Balance with Treasury

Status of Fund Balance with Treasury at September 30, 2013 and 2012 consisted of the following:

                                                                                                    2013            2012
  Appropriated Funds
  Unobligated Fund Balance
  	Available                                                                             $	1,750,729        $	6,423,446
  	Unavailable                                                                              4,185,137         3,739,607
  Obligated Balance Not Yet Disbursed                                                      25,464,874        49,413,010
  Total Appropriated Funds                                                                   31,400,740        59,576,063

  Customer Protection Fund
  Unobligated Fund Balance
  	Available                                                                             $	4,649,700        $	12,558,748
  	Unavailable                                                                                     –          10,302,100
  Obligated Balance Not Yet Disbursed                                                        333,533              43,681
  Total Customer Protection Fund                                                              4,983,233        22,904,529
  Deposit Fund                                                                                   83,997            77,098
  TOTAL FUND BALANCE WITH TREASURY                                                       $	36,467,970       $	82,557,690




54                               Management’s
       CFTC                      Discussion & Analysis
                                                              Financial Section        Other Information            Appendix
                                                                            FINANCIAL SECTION




Note 3. Investments
In fiscal year 2012, the CFfC began investing amounts deposited in the Customer Protection Funds in overnight short-term
Treasury securities. Treasury overnight certificates of indebtedness are issued with a stated rate of interest to be applied to
their par amount, mature on the business day immediately following their issue date, are redeemed at their par amount at
maturity, and have interest payable at maturity.

The Commission may invest in other short-term or long-term Treasury securities at management's discretion.

The overnight certificates are Treasury securities whose interest rates or prices are determined based on the interest rates or
prices of Treasury-related financial instruments issued or trading in the market, rather than on the interest rates or prices of
outstanding marketable Treasury securities.

The Commission's investments were $95,000,000 and $77,135,901 as of September 30, 2013 and 2012, respectively. Interest
earned during fiscal years 2013 and 2012 was $50,504 and $12,918, respectively.



Note 4. Accounts Receivable, Net
Accounts receivable consist of amounts owed the CFfC by other Federal agencies and the public. Accounts receivable are valued
at their net collectable values. Non-custodial accounts receivable are primarily for overpayments of expenses to other agencies,
or vendors, and repayment of employee benefits. Historical experience has indicated that most of the non-custodial receivables
are collectible and that there are no material uncollectible amounts.

Custodial receivables (non-entity assets) are those for which fines and penalties have been assessed and levied against businesses
or individuals for violations of the Commodity Exchange Act (CEA) or Commission regulations. Violators may be subject to a
variety of sanctions including fines, injunctive orders, bars or suspensions, rescissions of illegal contracts, disgorgements, and
restitutions to customers.

Historical experience has indicated that a high percentage of custodial receivables prove uncollectible. The Commission considers
all custodial receivables to be 100 percent uncollectible unless deemed otherwise. An allowance for uncollectible accounts has
been established and included in accounts receivable on the balance sheets. The allowance is based on past experience in the
collection of accounts receivable and analysis of outstanding balances. Accounts are re-estimated quarterly based on account
reviews and the agency determination that changes to the net realizable value are needed.

Accounts receivable, net consisted of the following as of September 30, 2013 and 2012:

                                                                                                        2013              2012
  Cust odial Receivables. Net:
      Civil Monetary Penalty Interest                                                        $       734.779      $    700.973
      Civil Monetary Penalties. Fines. and Administrative Fees                                   775, 17 4.072     557,751.289
      Less: A llowance for Loss on Interest                                                         (733.498)          (700,957)
      Less: A llowance for Loss on Penalties. Fines. and Administrative Fees                  (707 ,5 11 .077)    (555 ,30 1,289)
      Registration and Filing Fees                                                                 2,080.350          1,690.331

  NET CUSTODIAL RECEIVABLES                                                                  $ 69,744,626         $   4,140,347

  OTHER ACCOUNTS RECEIVABLE                                                                            13,252            20,976

  TOTAL ACCOUNTS RECEIVABLE, NET                                                             $ 69,757,878         $   4,161,323




     Management's
     Discussion & Analysis
                                 •   Financial SectiOn           Other lnformanon           Appendix              CFfC I      6l
Note 5. General Property, Plant and Equipment
Equipment and information technology (IT) assets are capitalized annually if they have useful lives of at least two years and
an individual value of $25,000 or more. Bulk or aggregate purchases are capitalized when the individual useful lives are at
least two years and the purchase is a value of $25,000 or more. Depreciation for equipment and software is computed on a
straight-line basis using a 5-year life. Leasehold improvements are amortized over the remaining life of the lease. Property,
Plant and Equipment as of September 30, 2013 and 2012 consisted of the following:

  2013                                                                                               Accumulated
                                                                                                     Amortization/      Net Book
  Major Class                          Service Life and Method                           Cost        Depreciation        Value

  Equipment                            5 Years/Straight Line                       $	34,567,373      $	(18,977,527)   $	15,589,846
  IT Software                          5 Years/Straight Line                           21,022,534      (10,162,678)     10,859,856
  Software in Development              Not Applicable                                   7,071,522    	–                  7,071,522
  Leasehold Improvements               Remaining Life of Lease/Straight Line           29,327,377       (4,597,429)    24,729,948
  Construction In Progress             Not Applicable                              	–                	–               	–
                                                                                   $	91,988,806      $	(33,737,634)   $	58,251,172


  2012                                                                                               Accumulated
                                                                                                     Amortization/      Net Book
  Major Class                          Service Life and Method                           Cost        Depreciation        Value

  Equipment                            5 Years/Straight Line                       $	29,120,043      $	(12,815,168)   $	16,304,875
  IT Software                          5 Years/Straight Line                           16,485,238       (6,938,168)      9,547,070
  Software in Development              Not Applicable                                   2,493,610    	–                  2,493,610
  Leasehold Improvements               Remaining Life of Lease/Straight Line           23,641,222    	(2,639,648)      21,001,574
  Construction In Progress             Not Applicable                                   4,063,306    	–                  4,063,306
                                                                                   $	75,803,419      $	(22,392,984)   $	53,410,435




Note 6. Deferred Costs
The Commission receives Tenant Improvement Allowances (TIA) from its landlords. These allowances are used to cover the
costs of building renovations, asset purchases, or rent expenses. The TIA is initially recorded as deferred costs on the balance
sheet and is amortized with the deferred lease liability over the life of the lease.

The Commission received approximately $16.2 million in TIA between FY 2010 and 2012, of which approximately $14.2 million
was used to fund leasehold improvements, and $1.8 million was used to cover rental payments. The remaining, unused balance
of $221 thousand is reflected as deferred costs on the balance sheet.

  Deferred Costs (TIA)                                                                                     2013              2012

  Beginning Balance, October 1                                                                      $	1,234,223       $	6,254,873
  TIA received                                                                                      	–                   2,868,320
  TIA used                                                                                            (1,013,270)     	(7,888,970)

  BALANCE AS OF SEPTEMBER 30                                                                        $	220,953         $	1,234,223




56                                 Management’s
        CFTC                       Discussion & Analysis
                                                                   Financial Section            Other Information            Appendix
                                                                        FINANCIAL SECTION




Note 7. Liabilities Not Covered by Budgetary Resources
As of September 30, 2013 and 2012, the following liabilities were not covered by budgetary resources:

                                                                                                      2013              2012

  lntragovernmental- FECA Liabilities                                                       $         94.605    $     127.661
  Annual Leave                                                                                   8.748.274           8.639.840
  Actuarial FECA Liabilities                                                                      501.748             636.582
  Custodial Liabilities                                                                         69,744.626           4.140.347
  Deposit Fund Liabilities                                                                            83.997            77.098
  Deferred Lease Liabilities                                                                    25,241.114          24.808.042
  Other                                                                                               19.600            19.050
  TOTAL LIABILITIES NOT COVERED BY BUDGETARY RESOURCES                                      $ 104,433,964       $ 38,448,620



Note 8. Retirement Plans and Other                               Note 9. FECA Liabilities
Employee Benefits
                                                                 FECA provides income and medical cost protections to
The CFTC imputes costs and the related financing sources         covered federal civilian employees injured on the job, to
for its share of retirement benefits accruing to its past and    employees who have incurred work-related occupational
present employees that are in excess of the amount of            diseases and to beneficiaries of employees whose deaths are
contributions from the CFTC and its employees, which are         attributable to job-related injuries or occupational diseases.
mandated by Jaw. The Office of Personnel Management              The FECA program is administered by the U.S. Department of
(OPM), which administers federal civilian retirement             Labor (DOL), which pays valid claims against the CFTC and
programs, provides the cost information to the CFrC. The         subsequently seeks reimbursement from the CFTC for these
CFTC recognizes the full cost of providing future pension        paid claims. Accrued FECA liabilities represent amounts due
and Other Retirement Benefits (ORB) for current employees        to DOL for claims paid on behalf of the agency. Accrued FECA
as required by Statement of Federal Financial Accounting         liabilities at September 30, 2013 and September 30, 2012 were
Standards (SFFAS) 5, Accounting for Liabilities of the Federal   $94,605 and $127,661, respectively.
Government.
                                                                 Actuarial FECA liability represents the liability for future
Full costs include pension and ORB contributions paid            workers compensation (fWC) benefits, which includes the
out of the CFTC's appropriations and costs financed by           expected liability for death, disability, medical, and miscel-
OPM. The amount financed by OPM is recognized as an              laneous cost for approved cases. The liability is determined
imputed financing source. This amount was $5,505,799 for         using a formula provided by DOL annually as of September
the period ended September 30, 2013 and $6,478,917 for           30th using a method that utilizes historical benefits payment
the period ended September 30, 2012. Reporting amounts           patterns related to a specific incurred period to predict the
such as plan assets, accumulated plan benefits, or unfunded      ultimate payments related to that period. The projected
liabilities, if any, is the responsibility of OPM.               annual benefits payments are discounted to present value
                                                                 using OMB's economic assumptions for ten-year Treasury
Liabilities for future pension payments and other future         notes and bonds. To provide more specifically for effects
payments for retired employees who participate in the            of inflation on the liability for fWC benefits, wage inflation
Federal Employees Health Benefits Program and the Federal        factors (Consumer Price Index-Medical) are applied to the
Employees Group Life Insurance Program are reported by           calculation of projected future benefits. These factors are also
OPM rather than CFTC.                                            used to adjust historical payments so benefits are stated in
                                                                 current-year constant dollars. Actuarial FECA liabilities at
                                                                 September 30, 2013 and September 30, 2012 were $501,7 48
                                                                 and $636,582, respectively.



     Management's
     Discussion & Analysis
                               •   Financial SectiOn         Other lnfonmanon              Appendix              CFfC I •
Note 10. Leases                                                         legal matters in which an unfavorable outcome is reasonably
                                                                        possible. In FY 2013, the Commission was involved in three
The CFTC leases office space in publicly owned buildings for its
                                                                        civil matters which it believes the chance of an unfavorable
locations in Washington D.C., Chicago, New York, and Kansas
                                                                        outcome to be reasonably possible. The potential loss in these
City. The lease contracts for publicly owned buildings are oper-
                                                                        cases is estimated to be $473.7 thousand.
ating leases. The CFTC has no real property. Future estimated
minimum lease payments are not accrued as liabilities and are
                                                                        Note 12. Undelivered Orders
expensed on a straight-line basis.
                                                                        The amount of budgetary resources obligated for undelivered
As of September 30, 2013, future estimated minimum lease                orders as of September 30, 2013 and 2012 consisted of the
payments through FY 2025 are as follows:                                following:

 Fiscal Year                                                 Dollars                                            2013            2012
 2014                                             $	18,110,766           Undelivered Orders          $	19,344,364        $	36,204,581
 2015                                                  18,254,669
 2016                                                  19,017,114       The amount of undelivered orders represents the value of

 2017                                                  19,411,711
                                                                        unpaid and paid obligations recorded during the fiscal year,

 2018                                                  19,772,333
                                                                        upward adjustments of obligations that were originally
                                                                        recorded in a prior fiscal year, and recoveries resulting from
 2019 and thereafter                                  136,003,682
                                                                        downward adjustments of obligations that were originally
 Total Future Minimum Lease Payments              $	230,570,275
                                                                        recorded in a prior fiscal year.
 Add: Amount representing estimated
 executory costs (taxes, maintenance,
 and insurance)                                        34,139,787
                                                                        Note 13. Apportionment Categories
 TOTAL MINIMUM LEASE                                                    of Obligations Incurred
 PAYMENTS, INCLUDING                              $	264,710,062
 ESTIMATED EXECUTORY COSTS                                              Obligations incurred and reported in the Statements of
                                                                        Budgetary Resources in FY 2013 and FY 2012 were Category A
Lease expense is recognized on a straight-line basis because            and consisted of the following:
lease payment amounts vary, and in some cases, CFTC receives
periods of up-front free rent, or incentive contributions                                                        2013           2012

(TIA) paid by the landlord. As of September 30, 2013, the                Direct Obligations                203,181,477   $	214,808,706
                                                                         Reimbursable Obligations               87,520        214,587
Commission had received $16,199,394 in incentive awards
for the renovation of space in Washington D.C., Chicago, New             TOTAL OBLIGATIONS
                                                                                                      $	203,268,997      $	215,023,293
                                                                         INCURRED
York and Kansas City. A deferred lease liability representing
expense amounts in excess of payments to date has been
recorded. The deferred lease liabilities at September 30, 2013          Note 14. Explanation of Differences between
and September 30, 2012 were $25,241,114 and $24,808,042                 the Statement of Budgetary Resources and
respectively.                                                           Budget of the United States Government
                                                                        The CFTC had no material differences between the amounts
Note 11. Contingent Liabilities
                                                                        reported in the Statement of Budgetary Resources and the actual
The CFTC records contingent liabilities for legal cases in              amounts reported in the Budget of the U.S. Government for FY
which payment has been deemed probable and for which the                2012. The Budget of the U.S. Government with actual numbers
amount of potential liability has been estimated, including             for FY 2013 has not yet been published. The expected publish
judgments that have been issued against the agency and which            date is February 2014. A copy of the Budget can be obtained
have been appealed. Additionally, the Commission discloses              from OMB’s website at http://www.whitehouse.gov/omb/.




58                                   Management’s
        CFTC                         Discussion & Analysis
                                                                       Financial Section          Other Information             Appendix
                                                                         FINANCIAL SECTION




Note 15. Intra-governmental Cost and Exchange Revenue by Goal
As required by the Government Performance and Results Act of 1993, the agency's reporting has been aligned with the following
major goals presented in the 2011 - 2015 CFfC Strategic Plan.

  1.     Protect the public and market participants by ensuring market integrity; promoting transparency, competition, and
          fairness; and lowering risk in the system.

  2.     Protect the public and market participants by ensuring the financial integrity of derivatives transactions, mitigation
          of systemic risk, and the fitness and soundness of intermediaries and other registrants.

  3.     Protect the public and market participants through a robust enforcement program.

  4.     Enhance integrity ofU .S. markets by engaging in cross-border cooperation, promoting strong international regulatory
         standards, and encouraging ongoing convergence of laws and regulation worldwide.

  5.     Promote Commission excellence through executive direction and leadership, organizational and individual perfor-
          mance management, and effective management of resources.

The Net Cost of Operations is derived from transactions between the Commission and public entities, as well as with other
federal agencies. The details of the intra-governmental costs and revenues, as well as those with the public, are as follows:

                                                                                            2013                      2012
 GOAL 1: PROTECT THE PUBLIC AND MARKET PARTICIPANTS BY ENSURING MARKET INTEGRITY;
 PROMOTING TRANSPARENCY, COMPETITION, AND FAIRNESS; AND LOWERING RISK IN THE SYSTEM.
  lntragovernmental Gross Costs                                                    $    9.973,286            $   10.083,898
  Less: Earned Revenue                                                                                               (4 7,728)
  lntragovernmental Net Cost of Operations                                         $    9,973,286            $   10,036, 170
  Gross Costs with the Public                                                      $   52,266,489            $   49.149,593
  Less: Earned Revenue                                                                     (28,526)                  (17, 179)
  Net Cost of Operations with the Public                                           $   52,237,963            $   49,132,414
  TOTAL NET COST OF OPERATIONS- GOAL ONE                                           $   62,211,249            $   59,168,584


 GOAL 2: PROTECT THE PUBLIC AND MARKET PARTICIPANTS BY ENSURING THE FINANCIAL
 INTEGRITY OF DERIVATIVES TRANSACTIONS, MITIGATION OF SYSTEMIC RISK, AND THE
 FITNESS AND SOUNDNESS OF INTERMEDIARIES AND OTHER REGISTRANTS.
  lntragovernmental Gross Costs                                                    $    9.211 ,220           $    9.313,379
  Less: Earned Revenue                                                                                               (44,081)
  lntragovernmental Net Cost of Operations                                         $    9,211,220            $    9,269,298
  Gross Costs with the Public                                                      $   48.272,764            $   45.394,034
  Less: Earned Revenue                                                                     (26,346)                  (15,867)
  Net Cost of Operations with the Public                                           $   48,246,418            $   45,378, 167
  TOTAL NET COST OF OPERATIONS- GOAL TWO                                           $   57,457,638            $   54,647,465


 GOAL 3: PROTECT THE PUBLIC AND MARKET PARTICIPANTS THROUGH
 A ROBUST ENFORCEMENT PROGRAM.
  lntragovernmental Gross Costs                                                    $   10.277,414            $   10.391 ,398
  Less: Earned Revenue                                                                                               (49, 183)
  lntragovernmental Net Cost of Operations                                         $   10,277,414            $   10,342,215
  Gross Costs with the Public                                                      $   53.860,314            $   50.648,372
  Less: Earned Revenue                                                                     (29,397)                  (17,704)
  Net Cost of Operations with the Public                                           $   53,830,917            $   50,630,668
  TOTAL NET COST OF OPERATIONS- GOAL THREE                                         $   64,108,331            $   60,972,883
                                                                                                         continued on next page


                                                                                                                            ~
       Management's
       Discussion & Analysis    •    Financial SectiOn        Other lnfonmanon             Appendix              CFfC I
(continued)                                                                          2013                      2012


GOAL 4: ENHANCE INTEGRITY OF US MARKETS BY ENGAGING IN CROSS-BORDER COOPERATION,
PROMOTING STRONG INTERNATIONAL REGULATORY STANDARDS, AND ENCOURAGING ONGOING
CONVERGENCE OF LAWS AND REGULATION WORLDWIDE.
 Intragovernmental Gross Costs                                               $	1,171,066                $	1,184,054
 Less: Earned Revenue                                                        	–                                (5,604)
 Intragovernmental Net Cost of Operations                                    $	1,171,066                $	1,178,450
 Gross Costs with the Public                                                 $	6,137,145                $	5,771,158
 Less: Earned Revenue                                                               (3,350)                    (2,017)
 Net Cost of Operations with the Public                                      $	6,133,795                $	5,769,141
 TOTAL NET COST OF OPERATIONS – GOAL FOUR                                    $	7,304,861                $	6,947,591

GOAL 5: PROMOTE COMMISSION EXCELLENCE THROUGH EXECUTIVE DIRECTION
AND LEADERSHIP, ORGANIZATIONAL AND INDIVIDUAL PERFORMANCE MANAGEMENT,
AND EFFECTIVE MANAGEMENT OF RESOURCES.
 Intragovernmental Gross Costs                                               $	4,324,204                $	4,372,163
 Less: Earned Revenue                                                        	–                               (20,694)
 Intragovernmental Net Cost of Operations                                    $	4,324,204                $	4,351,469
 Gross Costs with the Public                                                 $	22,661,636               $	21,310,216
 Less: Earned Revenue                                                              (12,368)                    (7,447)
 Net Cost of Operations with the Public                                      $	22,649,268               $	21,302,769
 TOTAL NET COST OF OPERATIONS – GOAL FIVE                                    $	26,973,472               $	25,654,238

GRAND TOTAL
 Intragovernmental Gross Costs                                               $	34,957,190               $	35,344,892
 Less: Earned Revenue                                                        	–                              (167,290)
 Intragovernmental Net Cost of Operations                                    $	34,957,190               $	35,177,602
 Gross Costs with the Public                                                 $	183,198,348              $	172,273,373
 Less: Earned Revenue                                                              (99,987)                   (60,214)
 Net Cost of Operations with the Public                                      $	183,098,361              $	172,213,159
 TOTAL NET COST OF OPERATIONS                                                $	218,055,551              $	207,390,761




60                               Management’s
       CFTC                      Discussion & Analysis
                                                         Financial Section          Other Information           Appendix
                                                                        FINANCIAL SECTION




Note 16. Reconciliation of Net Obligations a nd Net Cost of Operations
The schedule presented in this footnote reconciles the net obligations with the Net Cost of Operations. Resources Used to
Finance Activities reflects the budgetary resources obligated and other resources used to finance the activities of the agency.
Resources Used to Finance Items Not Part of the Net Cost of Operations adjusts total resources used to finance the activities of
the entity to account for items that were included in net obligations and other resources but were not part of the Net Cost of
Operations. Components Requiring or Generating Resources in Future Periods identifies items that are recognized as a compo.
nent of the net cost of operations for the period but the budgetary resources (and related obligation) will not be provided (or
incurred) until a subsequent period. Components Not Requiring or Generating Resources includes items recognized as part
of the net cost of operations for the period but will not generate or require the use of resources. The Net Cost of Operations
in the schedule presented in this note agrees with the Net Cost of Operations as reported on the Statements of Net Cost.

                                                                                                        2013                2012

 RESOURCES USED TO FINANCE ACTIVITIES
 BUDGETARY RESOURCES OBLIGATED
      Obligations Incurred                                                                  $ 203.268,997         $215.023,293
      Less: Spending Authority from Offsetting Collections and Recoveries                        (4,988,625)          (83.253,032)
 Obligations Net of Offsetting Collections and Recoveries                                       198.280,372           131.770,261
      Less: Offsetting Receipts                                                                       (63,000)             C3,21 OJ
      Net Obligations After Offsetting Receipts                                                 198.217,372           131.767,051

 OTHER RESOURCES
      Transfers In from from Disgorgements, Fines and Penalties                                      817,435           76.708,620
      Imputed Financing from Costs Absorbed by Others                                             5.505,799             6.478,917
 Total Resources Used to Finance Activities                                                 $ 204,540,606         $214,954,588

 RESOURCES USED TO FINANCE ITEMS NOT PART OF THE NET COST OF OPERATIONS
      Change in Budgetary Resources Obligated for Goods, Services and Benefits
                                                                                            $    16.898,076       $    (5.112,842)
      Ordered but not yet Provided before Adjustments
      Resources that Fund Expenses Recognized in Prior Periods                                       (167,890)
      Offsetting Receipts                                                                              63,000               3,210
      Resources that Fund the Acquisition of Fixed Assets                                       (15.823,712)          (12,963,942)
 Total Resources Used to Finance Items Not Part of the Net Cost of Operations               $        969,474      $ (18,073,574)

 COMPONENTS OF NET COST OF OPERATIONS THAT WILL REQUIRE
 OR GENERATE RESOURCES IN FUTURE PERIODS
      Increase in Unfunded Liabilities                                                               541 ,506             757,908
 Total Components of Net Cost of Operations that Will Require or Generate
                                                                                            $        541,506      $      757,908
  Resources in Future Periods

 COMPONENTS NOT REQUIRING OR GENERATING RESOURCES
      Depreciation and Amortization                                                         $    11.802,099       $     8.588,607
      CGainl/Loss on Disposal                                                                        548,992
      Other                                                                                          (347, 126)         1,163,232
 Total Components of Net Cost of Operations that Will Not Require or Generate
                                                                                            $    12,003,965       $     9,751,839
  Resources
 Total Components of Net Cost of Operations that Will Not Require or Generate
                                                                                            $    12,545,471       $    10,509,747
  Resources in the Current Year

 NET COST OF OPERATIONS                                                                     $ 218,055,551         $207,390,761




     Management's
     Discussion & Analysis
                              •     Financial SectiOn        Other lnformanon             Appendix                CFfC I        G
Note 17. Funds from Dedicated Collections
Funds from dedicated collections arise from disgorgement and penalty collections and are transferred to the Customer
Protection Fund (CPF), established by the Dodd-Frank Act. The collections are transferred from the custodial receipt
account if they are found to be eligible before the end of each fiscal year. In cases where the collection has been returned
to the Treasury Department, the Commission can recover the funds directly from Treasury. The collections will fund the
Commission’s whistleblower awards program and customer education initiatives.

The Dodd-Frank Act provides that whistleblower awards shall be paid under regulations prescribed by the Commission.
An important prerequisite to implementation of the whistleblower awards program is the issuance of rules and regulations
describing its scope and procedures. The Commission issued final rules implementing the Act on August 25, 2011. These
rules became effective on October 24, 2011. The Commission established the Whistleblower Office in FY 2012.

Eligible collections of $817 thousand and $76.7 million were transferred into the Customer Protection Fund during FY
2013 and 2012, respectively. The following chart presents the Fund’s balance sheets, statements of net costs, and statements
of changes in net position as of and for the years ended September 30, 2013 and September 30, 2012:


                                                                                                    2013             2012

 BALANCE SHEETS
      Fund Balance with Treasury                                                          $	4,983,233       $	22,904,529
      Investments                                                                              95,000,000        77,135,901
  TOTAL ASSETS                                                                            $	99,983,233      $	100,040,430
      Accounts Payable                                                                             60,116   	–
      Accrued Funded Payroll and Annual Leave                                                      18,826           43,681
  TOTAL LIABILITIES                                                                       $	78,942          $	43,681
      Cumulative Results of Operations – Dedicated Collections                                 99,904,291        99,996,749
  TOTAL NET POSITION                                                                      $	99,904,291      $	99,996,749

  TOTAL LIABILITIES AND NET POSITION                                                      $	99,983,233      $	100,040,430

 STATEMENTS OF NET COST
      Gross Costs                                                                         $	960,397         $	479,789
      Earned Revenue                                                                      	(50,504)         	(12,918)
  TOTAL NET COST OF OPERATIONS                                                            $	      909,893   $	     466,871

 STATEMENTS OF CHANGES IN NET POSITION
      Beginning Cumulative Results of Operations, October 1                               $	99,996,749      $	23,755,000
      Transfers-In Without Reimbursement                                                          817,435        76,708,620
      Net Cost of Operations                                                              	(909,893)        	(466,871)
      Net Change                                                                          	(92,458)              76,241,749
  TOTAL NET POSITION, SEPTEMBER 30                                                        $	99,904,291      $	99,996,749




62                                 Management’s
       CFTC                        Discussion & Analysis
                                                                 Financial Section      Other Information            Appendix
